No.

IN THE SUPREME COURT OF THE UNITED STATES

VIDEO GAMING TECHNOLOGIES, INC.,
Respondent,
vs.
ROGERS COUNTY BOARD OF TAX ROLL CORRECTIONS, a political
subdivision; CATHY PINKTERTON BAKER, Rogers County Treasurer, in her
official capacity; and SCOTT MARSH, Rogers County Assessor, in his official
capacity,
Petitioners.

CERTIFICATE OF SERVICE

It is hereby certified, pursuant to Supreme Court Rule 29(3) and under penalty
of perjury pursuant to 28 U.S.C. ยง1746, that all parties required to be served have
been served with copies of the APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI via email and first-class mail,
postage pre-paid, this 3nd day of March, 2020, and, in particular, the following counsel
of record:
Kurt M. Rupert, OBA #11982
Elizabeth A. Price, OBA #22278
Hartzog Conger Cason & Neville
201 Robert S. Kerr Ave., Suite 1600
Oklahoma City, OK 73102
(405) 235-7000
krupert@hartzoglaw.com
eprice@@hartzoglaw.com
Counsel for Respondent Video Gaming Technologies, Inc.

EXHIBIT
1

6

Kevin Ratliff, OBA #18130
Ratliff Law Firm
1403 Classen Drive
Oklahoma City, OK 73106
(405) 228-2017
kratliff@rlfokc.com
Counsel for Respondent Video Gaming Technologies, Inc.

DATED:

March 3, 2020

Respectfully submitted,
/s Matthew B. Free
Matthew B. Free
Counsel of Record
Thomas A. Le Blanc
BEST & SHARP
One West Third Street, Suite 900
Tulsa, Oklahoma 74103
(918) 582-1234
mfree@bestsharp.com
tleblanc@bestsharp.com

Matthew Ballard
Todd Wagner
Rogers County District Attorney's Office
200 S. Lynn Riggs Blvd.
Claremore, Oklahoma 74017
(918) 923-4960
Todd.Wagner@dac.state.ok.us
Matt.Ballard@dac.state.ok.us
Counsel for Petitioners Rogers County Board
of Tax Roll Corrections, a political
subdivision; Cathy Pinkerton Baker, Rogers
County Treasurer, in her official capacity; and
Scott Marsh, Rogers County Assessor, in his
official capacity.

2

